SUPREME COURT OF THE UNITED STATES
October Term, 2020

BRIAN K. ROGERS,
Petitioner,
NO.

vs.

UNITED STATES OF AMERICA,

wee eevee YS

Respondent,

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

NOW COMES the Petitioner/Defendant, Brain K. Rogers, by counsel, pursuant to
Supreme Court Rule 39, and requests leave to proceed in forma pauperis. In support this
motion, Petitioner provides the following:

Tl, Petitioner stands convicted, following a trial in United States District Court for
the District of Maine of 18 U.S.C. § 2252A(a)(5)(B) and 18 U.S.C. § 2256(8)(A) and his
supervised release was revoked. A timely appeal was filed with the First Circuit Court of
Appeals, which appeal was denied.

2: Petitioner is petitioning the Supreme Court for a Writ of Certiorari.

3. Petition has been found indigent on September 14, 2018 and undersigned counsel,
Robert C. Andrews, Esq., was appointed in the United States District Court for the District of
Maine on September 14, 2018 and remained counsel of record through the appeal in the United
States Court of Appeals for the First Circuit... Attorney Andrews remains Mr. Roger’s appointed
counsel of record.

4, As counsel was appointed pursuant to the Criminal Justice Act at the trial and

appellate level, leave to proceed in forma pauperis has not previously been sought.
WHEREFORE, it is requested that Petitioner's motion for leave to proceed in forma

pauperis be granted.

Dated at Portland, Maine on this 16th day of July, 2021.

(LA
Robert C. Andrews, Esq.
Attorney for Brian K. Rogers, Petitioner
Robert C. Andrews
117 Auburn Street Suite 201
Portland, Maine 04103
(207) 879-9850
CERTIFICATE OF SERVICE

I, Robert C. Andrews, attorney for Petitioner Brian K. Rogers, hereby certify that I have
caused, pursuant to Supreme Court Rule 39.2, one original of Petitioner's Motion for Leave to
Proceed Jn Forma Pauperis to be served upon the following:

Clerk United States Supreme Court
1 First Street, NE
Washington, DC 20543

and one copy upon:

Julia Lipez, AUSA
100 Middle Street 6" Floor
Portland, Maine 04101

Said Motion having been sent to the above addresses by first class mail, postage prepaid, this

27th day of March, 2020. A

Robert C. Andrews, Esq.
Attorney for Brian K. Rogers,
Petitioner

Robert C. Andrews

117 Auburn Street Suite 201
Portland, Maine 04103
(207) 879-9850
